OFFICE OF INSPECTOR GENERAL

      WORK PLAN
      FY 2002-04




    U.S. Department of Commerce
      Office of Inspector General
                                Office of Inspector General
                                    Organizational Chart

                                                                        Inspector
               Office of
                                                                         General
                                                                                                                                 Office of
            Compliance and
                                                                         Deputy                                                  Counsel
            Administration
                                                                    Inspector General

              Office of
                                                                                                                             Office of
          Inspections and
                                                                                                                        Systems Evaluation
        Program Evaluations



                               Office of                                                                           Office of
                                Audits                                                                          Investigations



Headquarters            Financial Statements                 Regional                 Headquarters                  Investigative                 Investigative
   Audits                      Audits                         Audits                 Investigations                  Operations                     Services




                                                    OIG Points of Contact
Inspector General .................................. (202)       482-4661     Office of Counsel ................................... (202)     482-5992
Legislative and                                                               Office of Inspections and Program Eval. (202)                   482-2754
Intergovernmental Affairs ....................... (202)          482-3052     Office of Investigations ........................... (202)      482-0934
Office of Audits ....................................... (202)   482-1934     Office of Systems Evaluation ................. (202)            482-6186
Office of Compliance and Admin. .......... (202)                 482-0231     Media Inquiries ....................................... (202)   482-5992



REQUESTS FOR REPORTS:                                                       OIG HOTLINE:
Telephone .......................................... (202) 482-0231         Telephone .................................................. (202) 482-2495
TDD Number ...................................... (202) 482-4948             ............................................................... or (800) 424-5197
Internet E-Mail ............................. reports@oig.doc.gov           Internet E-Mail .................................... hotline@oig.doc.gov

                                                          OIG Internet Home Page

                                            http://www.oig.doc.gov
         MESSAGE FROM
         THE INSPECTOR
               GENERAL

Public officials and others entrusted with public resources are responsible for applying those re-
sources economically, efficiently, and effectively to achieve established goals. When those re-
sources have been provided by the U.S. Department of Commerce, it is the responsibility of this
office to ensure that government employees and others managing federal resources comply with
applicable laws and regulations and actively work to prevent fraud, waste, and abuse in program
operations. Through audits, inspections, evaluations, and investigations, the Office of Inspector
General monitors and tracks the use of taxpayer dollars in federally funded programs. Our purpose
is to keep the head of the Commerce unit, the Office of the Secretary, and Congress fully and
currently informed about problems and deficiencies relating to administration of programs and
operations and the need for corrective action.
     In establishing a forward-looking, long-term approach to our mission, the OIG staff developed a
new, structured process for mapping the labyrinth of issues, agendas, legislation, and time constraints
intrinsic to our work. Work groups, consisting of staff from various OIG offices, conducted in-depth
research on the state of the operating units, reviewing a wide range of materials, including budget
requests, legislative documents, and GPRA-related plans and reports. While staff work groups con-
ducted research and analysis, OIG senior managers conducted extensive outreach with departmental
and operating unit officials to solicit their ideas and suggestions about potential areas for review. The
OIG Work Plan FY 2002-04 is designed around the identification of priority issues with input from OIG
staff, Congress, Commerce unit officials, relevant legislation, and our OIG Hotline.
     Among the many interdisciplinary, crosscutting issues that we defined, and that permeate the
broad range of Commerce activities, one emerged in the final analysis as most in continuing need of
assessment and resolution. That issue is security of Commerce policies, programs, and IT systems that
have an impact on our nation as a whole. The events of the past year somberly underscore the urgency
of our addressing security on an unremitting basis. Our commitment to security in serving the American
people shows in the tasks we have set before us.
     For each of the issues included in this work plan, three basic types of information are provided:
        OBJECTIVE: What we intend to accomplish by addressing this issue.
        SIGNIFICANCE: Why we believe OIG oversight of this issue is important to fulfilling our mission,
        which is to promote economy, efficiency, and effectiveness and detect and prevent waste, fraud,
        abuse, and mismanagement in the programs and operations of the U.S. Department of Commerce.
        REVIEW EMPHASIS: How we plan to address issues of concern and work toward cost-effective
        solutions.
By developing this new way to structure our workload, we have created a framework for building a
targeted and comprehensive body of work. We offer this document as a show of faith in our commitment
to our mission of ensuring the continued integrity and dedication of the staff of OIG.




                                                                               OIG Work Plan FY 2002-04     iii
                      TYPES OF
                   OIG REVIEWS


        For the federal government, OIGs must ascertain program viability from a variety of perspectives. The
        various kinds of audits, evaluations, inspections, and investigations at our disposal afford the IGs
        office a comprehensive view of Commerce programs and operations. Thus we are able to provide program
        managers with reviews and recommendations that are both objective and inclusive and can be used to
        aid them in ensuring the most efficient and effective use of taxpayer dollars.

                                                        AUDITS
             Performance Audits address the efficiency, effectiveness, and economy of the Departments programs,
        activities, and information technology systems. They may check a units compliance with laws and
        regulations, and evaluate its success in achieving program objectives.
             Financial-Related Audits review the Departments contracts, grants, cooperative agreements, loans,
        and loan guarantees. They assess compliance with laws, regulations, and award terms; adequacy of
        accounting systems and internal controls; allowance of costs; and the degree to which projects achieved
        the intended results.
             Financial Statements Audits determine whether (1) a reporting entitys financial statements are
        presented fairly and in accordance with generally accepted accounting principles; (2)the entity has an
        internal control structure that provides reasonable assurance of achieving the control objectives set
        forth by OMB; and (3) the entity complied with laws and regulations that could have a direct and
        material effect on the financial statements, the Federal Financial Management Improvement Act, and
        other laws and regulations.

                                                    INSPECTIONS
            Inspections are reviews of an activity, unit, or office, or a contractor or other nonfederal entity that
        receives funds from the Department. They focus on an organization, not a whole program, and are often
        designed to give agency managers timely and useful information about operations, including current
        and foreseeable problems.

                                                   EVALUATIONS
           Program Evaluations are in-depth reviews of specific management issues, policies, or programs.
           Systems Evaluations review system development, acquisitions, operations, and policy, focusing on
        computer systems and other technologies.

                                                  INVESTIGATIONS
            Criminal/Civil/Administrative Investigations are conducted based on alleged or suspected
        wrongdoing by Department employees, contractors, recipients of financial assistance, and others
        responsible for handling federal resources. Investigations that expose violation of Department rules
        and regulations or acts of fraud committed against the U.S. government can result in administrative
        sanctions and/or criminal or civil prosecution.


iv   OIG Work Plan FY 2002-04
                        CONTENTS



SECURITY
The Departments Emergency Preparedness and Physical Security Capabilities ............................... 1
BISs Management of the Dual-Use Export Licensing Process .......................................................... 2
BISs Efforts to Help Ensure U.S. Compliance with the Chemical Weapons Convention Treaty ......... 3
BISs Export Enforcement Activities ................................................................................................. 4
Information Security Policies, Management, and Oversight Department-Wide .................................. 5
Measures to Safeguard the Security of IT Systems and Their Related Networks ................................ 6

FINANCIAL MANAGEMENT
The Departments Consolidated Financial Statements and Financial Management Controls ............. 7
Reimbursable Activities and User Fees ............................................................................................. 8

FINANCIAL ASSISTANCE PROGRAMS
Award Recipients Compliance with Federal Financial Accounting Responsibilities ......................... 9
Prescreening of Financial Assistance Award Candidates ................................................................. 10
Compliance with the Single Audit Act ............................................................................................. 11
Reviewing Nonfederal Audits of NIST ATP Projects ....................................................................... 12

SYSTEMS/CAPITAL ACQUISITIONS
The Commerce Administrative Management System ....................................................................... 13
National Polar Convergence and Geostationary Satellites ................................................................ 14
Strategies for Major Systems Acquisitions ....................................................................................... 15
Management Controls Governing Selected Capital Acquisitions Department-Wide ......................... 16
PROGRAMS AND OPERATIONS: SCIENCE AND TECHNOLOGY
NOAA-Wide Research Coordination ............................................................................................... 17
NMFSs Environmental Stewardship Responsibilities ..................................................................... 18
Enhancing Safe Navigation of U.S. Waters by Reducing the NOS Survey Backlog .......................... 19
NWSs Delivery of Information to Its Users ..................................................................................... 20
NIST Laboratories Fees for Research Conducted for Other Federal Agencies ................................. 21
NTISs Mission and Financial Viability ........................................................................................... 22




                                                                                                       OIG Work Plan FY 2002-04           v
        PROGRAMS AND OPERATIONS: BUSINESS AND ECONOMICS
        NTIAs Public Telecommunications Facilities Program .................................................................... 23
        EDAs Coordination of Interagency Economic Development Efforts ................................................ 24
        Accuracy and Reliability of BEAs National Income and Product Accounts .................................... 25
        2010 Decennial Census Planning ................................................................................................... 26
        ITAs Trade Compliance and Market Access Activities .................................................................... 27
        ITAs Efforts to Promote U.S. Exports .............................................................................................. 28
        MBDAs Coordination and Delivery of Services to the Minority Business Community ..................... 29
        USPTOs Transition to a Performance-Oriented Organization .......................................................... 30

        PROGRAMS AND OPERATIONS: DEPARTMENT-WIDE MANAGEMENT
        Major Capital Facilities Improvement Projects ................................................................................ 31
        Administrative Services Programs .................................................................................................. .32
        Procedures for Designating Positions According to Their Level of Risk and Sensitivity .................. 33
        Acquisition Reform and Management ............................................................................................ .34
        The Commerce Bankcard Program ................................................................................................. .35
        Policies and Programs for Human Capital Management ................................................................. .36

        INFORMATION TECHNOLOGY AND DATA MANAGEMENT
        Department-Wide Planning, Management, and Oversight of IT Projects ......................................... 37
        Electronic-Government Initiatives .................................................................................................. 38
        Data Management ........................................................................................................................... 39

        STRATEGIC PLANNING AND PERFORMANCE MEASUREMENT
        Verification and Validation of Performance Measures ...................................................................... 40
        GPRA Requirements for Evaluating Program Results ..................................................................... 41

        OIG PROGRAMS AND ACTIVITIES
        Monitoring and Follow-up Reviews on the Implementation of Key OIG Recommendations ............. 42
        Participation in Government-Wide and Crosscutting Projects Involving Multiple OIGs ................... 43




vi   OIG Work Plan FY 2002-04
          INTRODUCTION



One of the primary objectives of this office is to identify and engage in tasks that hone our efforts to
strengthen and reinforce the effective, efficient, and economical management of programs and opera-
tions critical to the U.S. Department of Commerce. Periodically we renew our resolve to ensure that OIG
activities address Commerces most vital issues by taking careful stock of the status of the Departments
programs and functions, reassessing priorities, and thereby, precisely setting our course for the future.
With this goal in mind, OIG designed and implemented an extensive survey and planning process to
evaluate Department activities and determine those areas most in need of our attention.
      The process was comprehensive and multifaceted. OIG interoffice work groups conducted exten-
sive research on individual operating unitsexamining the state of the unit; reviewing a range of mate-
rials that included budget requests, legislative documents, GPRA-related plans and reports, and rel-
evant congressional testimony; analyzing issues that cut across and impact the missions of several units
at once; and interviewing OIG employees whose experience reviewing departmental activities was a
valuable source of ideas and information.
      OIG senior officials broadened the scope of the work groups activities by holding discussions with
congressional staff, departmental managers, and other stakeholders to solicit their suggestions on poten-
tial topics for review.
      Following these efforts, OIG convened a planning conference at which managers and work group
members presented their findings. Each work group identified 10 issue areas it deemed most signifi-
cant for the Commerce units it had examined. From these discussions, senior managers developed a list
of more than 40 priorities that will guide OIG activities for 2002-04 and beyond.
      The Top 10 Management Challenges addressed in our semiannual reports to Congress continue to
rank high on the list of priorities and have been amplified and further refined by our planning process.
Other key issue areas include human capital, procurement, system/capital acquisitions, and informa-
tion technology/data management.
      We prepared this work plan to serve as a ready reference to focus our efforts and keep us on target,
but it is a living document that we will periodically revisit and revise to ensure that it continues to
reflect the needs of the nation and the Departments role in accommodating them.




                                                                                OIG Work Plan FY 2002-04     vii
            U.S. DEPARTMENT
                OF COMMERCE
             UNIT ACRONYMS

         BEA          Bureau of Economic Analysis
         BIS          Bureau of Industry and Security (formerly BXA, Bureau of Export Administration)
         EDA          Economic Development Administration
         ESA          Economics and Statistics Administration
         ITA          International Trade Administration
         MBDA         Minority Business Development Agency
         NESDIS       National Environmental Satellite, Data, and Information Service
         NIST         National Institute of Standards and Technology
         NMFS         National Marine Fisheries Service
         NOAA         National Oceanic and Atmospheric Administration
         NOS          National Ocean Service
         NTIA         National Telecommunications and Information Administration
         NTIS         National Technical Information Service
         NWS          National Weather Service
         OIG          Office of Inspector General
         TA           Technology Administration
         USPTO        United States Patent and Trademark Office




viii   OIG Work Plan FY 2002-04
                                                  THE DEPARTMENTS EMERGENCY
            SECURITY                              PREPAREDNESS AND PHYSICAL
                                                  SECURITY CAPABILITIES
                                                  Objective: Evaluate the Departments emer-
                                                  gency preparedness and physical security plans
                                                  and procedures at sites in Washington, DC, and
                                                  at other selected domestic and overseas loca-
                                                  tions.


Significance: The bombing of the federal building in Oklahoma City in 1995, the bombings of U.S.
embassies in 1998, and the events of September 11, 2001, ushered in a new era of security
concerns for the nation. For the federal government, those attacks highlighted the vulnerabilities in
the security of federal facilities and in our emergency preparedness plans and procedures. Thus the
heightened emphasis on physical security and emergency preparedness that has gripped all of
                                                           America is especially evident at the
                                                           governments own facilities. Commerce
                                                           maintains an Occupant Emergency Plan
                                                           that outlines its emergency procedures, but
                                                           the catastrophic events of 1995, 1998, and
                                                           2001 underscore the need to reexamine
                                                           crisis strategies for all facilities occupied
                                                           by Commerce employees.
                                                                Federal Property Management
                                                           Regulation 101-20.103-4 and Executive
                                                           Order 12656 of 1988 require federal
                                                           agencies to establish protocolsincluding
                                                           emergency evacuation plansto safeguard
                                                           life and property in federal facilities during
                                                           emergencies, including attacks, bomb
                                                           threats, civil disorders, fires, explosions,
                                                           natural disasters, and direct threats to
                                                           major computer operations that risk
                                                           compromise of classified information. EO
                                                           12656 further states that all levels of
                                                           government must meet essential defense
                                                           and civilian needs during times of national
                                                           emergency by implementing Continuity of
                                                           Operations Plans (COOPs) that detail the
                                                           orderly transition to emergency operations
                                                           and maintain the agencys ability to perform
                                                           missions during a crisis.

Review Emphasis: OIG will examine emergency preparedness plans for selected Commerce
facilities to (1) determine whether the sites have viable emergency response structures in place;
(2) assess the status of physical security at each location and the extent to which each conforms to
Department of Justice physical security standards; and (3) identify changes in emergency planning
and preparedness and physical security since September 11.



                                                                                OIG Work Plan FY 2002-04    1
                                                        BISS MANAGEMENT OF THE DUAL-
                   SECURITY                             USE EXPORT LICENSING PROCESS

                                                       Objective: Assess the adequacy and effectiveness
                                                       of the U.S. multiagency export licensing process in
                                                       preventing acquisition of militarily sensitive U.S.
                                                       dual-use technology and technical information by
                                                       countries and entities of concern.

       Significance: Rogue countries and terrorist groups seeking to acquire weapons of mass destruction
       and weapons delivery systems pose new threats to U.S. national security and foreign policy goals. The
       United States controls the export of certain goods and technologies for national security and foreign
       policy purposes under the authority of several laws, including the Export Administration Act of 1979.
       BIS administers the interagency licensing process for exports that have both civilian and military uses
       (dual-use commodities) and attempts to bring divergent policy views and information to bear on license
       decision making.
           Striking a balance between the need to protect national security and foreign policy interests and
       the desire to not unduly restrict U.S. trade opportunities and competitiveness poses a problem that both
       OIG and GAO have identified as a major management challenge for the Department.
       Review Emphasis: The National Defense Authorization Act for fiscal year 2000 mandates annual
       reviews and reports to Congress, until 2007, from the agencies responsible for dual-use and munitions
       export licensing. Thus, we will conduct our assessments in conjunction with Offices of Inspector General
       from the Departments of State, Defense, Energy, and the Treasury, and the CIA. OIG has already devoted
       considerable attention to BISs efforts to control exports of dual-use commodities and technology. We
       also will follow up on our previous work in this area, which includes assessments of the timeliness,
       efficiency, and effectiveness of approvals; interagency cooperation in the review of applications; the
       commodity classification and appeals processes; the intelligence communitys review of applications
       and the cumulative effect of approvals; the automated export licensing system; and exporter compliance
       with license conditions.



                                      What Are Dual-Use Commodities?
         Dual-use identifies items regulated by Export Administration Regulations (EAR) that can be
         used in both sensitive (e.g., military or nuclear) and nonsensitive (e.g., civilian and nonnuclear)
         applications, as opposed to items intended specifically for weapons or military-related use or
         design, and are subject to (1) the controls of the Department of State or (2) the nuclear-
         related controls of the Department of Energy or the Nuclear Regulatory Commission. All
         commodities, technology, and software subject to the licensing authority of BIS are included in
         the Commerce Control List (found in Suppl. 1 to Part 774 of the Export Administration
         Regulations). A small percentage of commodities subject to EAR regulation require the
         submission of a license application to the Department of Commerce. Whether a license is
         required depends on an items technical characteristics, its final destination, the end-use and
         end-user, and the activities of the end-user.




2   OIG Work Plan FY 2002-04
                                               BISS EFFORTS TO HELP ENSURE U.S.
            SECURITY                           COMPLIANCE WITH THE CHEMICAL
                                               WEAPONS CONVENTION TREATY

                                                Objective: Assess BISs efforts to oversee fulfill-
                                                ment of U.S. obligations to comply with the
                                                Chemical Weapons Convention treaty.


Significance: The Chemical Weapons Convention treaty (CWC), an international arms control and
nonproliferation agreement, bans the development, production, stockpiling, and use of chemical weap-
ons. The United States ratified the treaty on April 25, 1997, and enacted implementing legislation on
October 21, 1998. CWC could have a significant effect on the private sector. Part of BISs role is to
collect and validate chemicals-related data from U.S. companies; assist them before and during inter-
national inspections, in an effort to help prevent unauthorized access to proprietary business informa-
tion and facilities; and educate them about compliance obligations.
     U.S. industries produce, process, consume, import, and export a number of dual-use chemicals that
can be used to make chemical weapons; and the companies engaged in activities involving certain of
these chemicals are required to submit reports to Commerce and are subject to inspection by the
Organization for the Prohibition of Chemical Weapons (OPCW), the international body that administers
the treaty.
     BIS is responsible for helping ensure U.S. industry compliance with requirements of the treaty and
for minimizing negative impacts of the international inspections process on American companies. BISs
success is critical if the United States is to meet its treaty obligations.

Review Emphasis: OIG will focus on evaluating BISs CWC-related outreach to industry, assessing
the bureaus efforts to identify U.S. companies that are not complying with implementation of CWC, and
describing best practices that BIS may use during U.S. negotiations of CWC.


  In fiscal year 2001, approximately 20 percent of BISs criminal cases and Closed Export
  Enforcement Administration cases involved illegal export of chemicals, including alpha-
  toxins and mycrosystins, to various countries; chlorine and sulphur dioxide gas sensors to
  Mideast countries; and phosphine, asine, trimethylgallium, thimethylaluminum, and
  trimethylindium to China.
  • Thimethylaluminum, trimethylgallium, trimethylindium are metalorganic compounds
     that, when exposed to air or water, generate heat and exhibit some degree of
     spontaneous combustibility or pyrophorocity.
  • Alpha neurotoxins have curare-like action, binding postsynaptic skeletal muscle nicotinic
     acetylcholine receptors (important for memory and learning) and causing nausea,
     paralysis of the eye muscles, muscle soreness, respiratory paralysis, and death. 
  • Phosphine gas, when inhaled, can react with moisture in the lungs to form phosphoric
     acid, which can result in blistering and edema on the lungs and cause death.

  Source: U.S. Department of Commerce, 2001. U.S. Department of Commerce FY 2001
  Accountability Report: Charting Our Course for a Stronger America. Washington, DC: U.S.
  Department of Commerce.




                                                                              OIG Work Plan FY 2002-04    3
                                                     BISS EXPORT ENFORCEMENT
                  SECURITY                           ACTIVITIES
                                                     Objective: Evaluate the effectiveness of BISs
                                                     enforcement activities, including its efforts to
                                                     prevent the illegal export of dual-use items, investi-
                                                     gate and assist in prosecuting violators of Export
                                                     Administration Regulations, and educate U.S.
                                                     companies about dual-use export controls.


       Significance: The United States controls the export of dual-use commodities for national security
       and foreign policy purposes under the authority of several laws, including the Export Administration
       Act of 1979. To be effective, export controls must be enforced and illegal exporters detected, fined,
       and prosecuted. Both BIS and the U.S. Customs Service have responsibility for investigating allega-
       tions of illegal exports. However, concerns have been raised in the past about the effectiveness of
       the nations efforts to enforce export controls and the ability of these two agencies to work together
       on export enforcement matters. Both OIG and GAO have identified the need to strengthen export
       controls as a major management challenge facing the Department.




       Review Emphasis: Part of OIGs mandate under the National Defense Authorization Act for fiscal
       year 2000 is to assess how well export controls and counterintelligence succeed in preventing
       countries and entities of concern from acquiring sensitive U.S. technology and technical informa-
       tion. The interagency OIG review team selected export controlautomated system(s) as its topic for
       review in fiscal year 2002 and export enforcement for 2003. The Commerce OIG evaluation of
       BISs export enforcement program will review (1) the bureaus domestic enforcement activities,
       including its interactions with the U.S. Customs Service, the FBI, and the intelligence community;
       and (2) its foreign enforcement activities such as its prelicense check and postshipment verification
       program, its Safeguard Verification program, and other international efforts that target countries
       suspected of violating U.S. export control laws and regulations, including those involved in the
       transshipment of illegal exports to countries of concern.



4   OIG Work Plan FY 2002-04
                                                  INFORMATION SECURITY POLICIES,
            SECURITY                              MANAGEMENT, AND OVERSIGHT
                                                  DEPARTMENT-WIDE

                                                  Objective: Determine the effectiveness of infor-
                                                  mation security policies, management, and over-
                                                  sight within selected Commerce operating units.


Significance: OIG has identified strengthening information security Department-wide as one of the
Top 10 Management Challenges facing Commerce. As computer incidents and vulnerabilities in-
crease in general, our reviews of the Departments information security policy and oversight found
that both need to be revised and expanded and that Commerce operating units cannot rely on
departmental security policy as a foundation for their own general and system-specific procedures.
GAOs August 2001 report, Information Security: Weaknesses Place Commerce Data and Operations
at Serious Risk, highlighted weaknesses in Commerces efforts to manage its information security
program, noting specifically that Commerce cannot ensure that sensitive data and critical opera-
tions are safeguarded and that it lacks a strong centralized management function to oversee and
coordinate Department-wide security-related activities. The Department responded with a con-
certed effort to address these issues.
     These actions underscore the overall importance of information security to the Department and
its programs and the need for added attention. The high priority that Congress has given this issue is
evidenced by passage of the Government Information Security Reform Act (GISRA), which required
OIG to conduct independent annual evaluations of the Departments information security program
in FY 2001 and 2002. The results of OIGs reviews of selected operating units have been reported
in these annual evaluations.

Review Emphasis: OIG intends to continue evaluating the effectiveness of information security
policy, planning, management, and oversight within selected operating units by assessing their
compliance with federal laws, policies, and guidelines.

 A vulnerability is a weakness in automated system security procedures, administrative
 controls, physical layout, internal controls, etc., that could be used to gain unauthorized
 access to information or disrupt critical processing. The definition of incident, however,
 varies, but the following categories and examples generally apply.

 • Compromise of integrity - a virus infects a program, or a vulnerability is introduced
   by other means.
 • Denial of service - an attacker disables a system or a network worm saturates net-
   work bandwidth.
 • Misuse - an intruder (or insider) makes unauthorized use of an account.
 • Damage - a virus destroys data.
 • Intrusions - an intruder penetrates system security

 Sources: E. Eugene Schultz, Jr., et al. 1990. Responding to Computer Security Incidents. Livermore, CA:
 Lawrence Livermore National Laboratory; and CERT Coordination Center: Vulnerabilities, Incidents &
 Fixes. (http://www.cert.org/stats/#vulnerabilities)




                                                                                   OIG Work Plan FY 2002-04   5
                                                      MEASURES TO SAFEGUARD THE

                   SECURITY                           SECURITY OF IT SYSTEMS AND THEIR
                                                      RELATED NETWORKS
                                                      Objective: Assess the effectiveness of information
                                                      security measures in safeguarding the integrity,
                                                      confidentiality, authenticity, availability, and
                                                      nonrepudiation of information entrusted to the
                                                      Department of Commerce.

       Significance: The Department is responsible for numerous complex computer systems that provide
       essential information and services to the public and support critical mission activities. As these systems
       have become more visible, interconnected, and vital to the Commerce mission, inherent risks have
       increased.
           OIG and the Departments Offices of the Chief Information Officer and the Deputy Assistant Secre-
       tary for Security, as well as GAO, have all identified major information security weaknesses within
       Commerce and the need to improve information security measures throughout the Department. OIG
       added Strengthening Department-wide information security as a Top 10 Management Challenge.
       Moreover, GISRA requires OIG to conduct independent annual evaluations of the Departments infor-
       mation security program.
       Review Emphasis: OIG plans to conduct information security assessments, including penetration
       testing, throughout the Department. These evaluations will cover selected mission-critical IT systems,
       activities, and resources, including each Commerce financial management system and its related
       networks. Reviews of individual financial management systems and networks are conducted on a 2-
       year, rotating basis in conjunction with our contractor-performed audits of Commerce operating units
       financial statements. The information security reviews will address the control areas identified in NISTs
       Security Self-Assessment Guide for Information Technology Systems and GAOs Federal Information
       System Controls Audit Manual.




6   OIG Work Plan FY 2002-04
                                              THE DEPARTMENTS CONSOLIDATED
             FINANCIAL                        FINANCIAL STATEMENTS AND
                                              FINANCIAL MANAGEMENT CONTROLS
   MANAGEMENT                                  Objective: Determine whether the Departments
                                               financial statements are presented fairly and
                                               whether internal controls for financial reporting
                                               processes are operating effectively.


Significance: The Government Management Reform Act of 1994 requires annual preparation and
audit of organization-wide financial statements by Commerce and 23 other executive departments
and agencies. In addition, the Federal Financial Management Improvement Act (FFMIA) of 1996
mandates that the auditor report whether the agencys financial management systems comply sub-
stantially with federal requirements for such systems, applicable federal accounting standards, and
the U.S. Government Standard General Ledger at the transaction level. The audit reports must state
whether the Department (1) has consolidated financial statements that are presented fairly, in all
material respects, and in accordance with generally accepted accounting principles; (2) has an
internal control structure that provides reasonable assurance of achieving control objectives set
forth by OMB; and (3) is in compliance with laws and regulations, including FFMIA and other edicts
as prescribed by OMB that could directly and/or materially affect the accuracy and reliability of its
financial statements. These audit reports are issued to OMB, GAO, and Congress. An agencys
financial management performance is graded annually on the basis of its audit results.

                                                                        OIGs audits of FY 2001 fi-
                                                                   nancial statements identified a
                                                                   number of material weaknesses,
                                                                   reportable conditions, and in-
                                                                   stances of noncompliance with
                                                                   laws and regulations. Thus we
                                                                   identified Strengthen financial
                                                                   management controls to maintain
                                                                   a clean opinion on the
                                                                   Departments consolidated finan-
                                                                   cial statements as one of the Top
                                                                   10 Management Challenges fac-
                                                                   ing the Department.



Review Emphasis: OIG will audit (primarily through contracts with independent certified public
accounting firms) Commerces consolidated financial statements as well as financial statements of
individual operating units as deemed necessary. Where appropriate, OIG will oversee detailed
reviews of an operating units financial management controls to improve internal controls and pro-
mote operating efficiencies in areas noted during the audit as problematic but not reportable.




                                                                             OIG Work Plan FY 2002-04   7
                                                       REIMBURSABLE ACTIVITIES AND USER
                    FINANCIAL                          FEES

           MANAGEMENT                                  Objective: Determine whether selected Com-
                                                       merce operating units are properly managing their
                                                       reimbursable activities, including recovering the
                                                       costs of work performed under reimbursable
                                                       agreements or user fee arrangements.

       Significance: In this era of shrinking budgets and fiscal flux, the public wants assurance that user
       fees charged for government products and services are fairly determined. At the same time,
       appropriately charging for the full cost of products and services provided is essential to effective
       maintenance of operations. Four Commerce operating unitsUSPTO, NTIS, Census, and NIST
       combined, collect about $1.6 billion in revenue annually from user fees and reimbursable agreements.
       USPTO and NTIS are funded exclusively by user fees.

                           Department of Commerce Earned Revenue, FY 2001
                           Agency                             Amount (in thousands)
                           USPTO                                          $ 1,040,258
                           NOAA                                               236,550
                           ESA (includes BEA and Census)                      202,519
                           TA (includes NIST and NTIS)                        153,376
                           Other Bureaus                                       57,713
                           Departmental                                       195,398
                           Subtotal                                         1,883,814
                           Intra-Dept. Elimin.                               (194,708)
                           Total                                          $ 1,689,106

                            Source: U.S. Department of Commerce, 2001. FY 2001
                            Accountability Report: Charting Our Course for a Stronger
                            America, p. 178.

           OMB Circular A-25, User Charges, requires federal agencies to recover the full cost of providing
       goods and services. For special products and services, user fees, not agency appropriations, should
       cover the cost. The Departments annual Accountability Report regularly includes a section on
       Biennial Review of Fees. OIG, as well as GAO, has identified cost, accountability, and compliance
       issues related to user fees and reimbursable costs as areas of concern.

       Review Emphasis: OIG will assess the Departments review, reporting, and charging of user fees
       and reimbursable costs. Reviews will also assess the adequacy of operating units systems and
       controls related to accounting for costs and associated revenues.




8   OIG Work Plan FY 2002-04
                                             AWARD RECIPIENTS COMPLIANCE WITH
          FINANCIAL                          FEDERAL FINANCIAL ACCOUNTING
                                             RESPONSIBILITIES
         ASSISTANCE                          Objective: Assess financial assistance award recipi-
                                             ents compliance with laws, regulations, and award

          PROGRAMS
                                             terms; adequacy of accounting systems and internal
                                             controls; and allowability of costs; as well as the
                                             degree to which projects achieve intended results.

Significance: Commerce spends about one-quarter of its annual budget on financial assistance,
ranging from thousands to millions of dollars, to support specific projects and programs conducted
by approximately 3,000 nonfederal entities. EDA, ITA, MBDA, NIST, NOAA, and NTIA offer financial
assistance awards. Because this outlay represent a significant portion of the Departments budget
and is inherently vulnerable to waste and abuse, OIG conducts cost and compliance audits of selected
projectsoften at the request of agency officials.
     But we can audit only a small portion of the more than 3,000 awards made each year. Hence, it
is crucial that we focus on those that offer the greatest potential return on investment, as measured
in terms of deterrence value or actual recovery of misappropriated funds.




Review Emphasis: Audits that are not prompted by requests from operating unit officials are self-
initiated as a result of survey and selection techniques that identify projects susceptible to
noncompliance. High-vulnerability financial assistance projects include those that have (1) never
been audited, (2) previously been audited and found to have reported instances of noncompliance
and questioned costs, (3) been the subject of complaints received via the OIG Hotline, or (4) shown
evidence of certain financial indicators of fraud, waste, and abuse. OIGs External Audits Task
Force plans and conducts all financial assistance audits and typically performs between 20 and 30
financial assistance audits per year.




                                                                             OIG Work Plan FY 2002-04   9
                                                      PRESCREENING OF FINANCIAL
                 FINANCIAL                            ASSISTANCE AWARD CANDIDATES

                ASSISTANCE                            Objective: Undertake preventive activities to

                 PROGRAMS                             identify and screen out potentially problematic
                                                      candidates for Commerce financial assistance before
                                                      funding is awarded.

       Significance: The Department awards more than $1 billion per year in financial assistance to thou-
       sands of nonfederal, nonprofit, and, sometimes, for-profit organizations. OIG, in conjunction with the
       operating units, screens proposed recipients before awards are made. As part of this process, OIG
       conducts limited background checks. Prescreening provides information about whether the applicant
       has unresolved audit findings on earlier awards and reveals, via name check or investigation, any nega-
       tive history for individuals or organizations connected with the proposed awardee. Depending on the
       screening results, OIG might recommend that the operating unit deny, delay, or approve an award,
       sometimes with special conditions to better protect the governments financial interests.
            If significant adverse information is found, OIG notifies the grants officer, who must then consult
       with both the program officer and OIG before making a final award decision.

       Review Emphasis: The focus here is on preventionidentifying and avoiding as many potential
       problems as possible before funds are awarded. There is growing recognition that a proactive approach
       in these circumstances is beneficial to the government.
            In addition to conducting preaward screening, OIG plans to review its screening process to identify
       procedures that should be either added to improve the quality of the reviews or eliminated because they
       are outdated or unproductive.


                   Department of Commerces Financial Assistance Awards Process




10   OIG Work Plan FY 2002-04
                                                    COMPLIANCE             WITH THE        SINGLE
            FINANCIAL                               AUDIT ACT

           ASSISTANCE                                Objective: Meet OIGs responsibilities as a cogni-
                                                     zant agency by ensuring that federal grant recipients
                                                     comply with the Single Audit Act and OMB Circular
            PROGRAMS                                 A-133, Audits of States, Local Governments, and
                                                     Non-Profit Organizations.


Significance: Recipients of Commerce financial assistance awards who expend more than $300,000
in federal funds in any year are audited by state or local government auditors or by independent
public accountants. OMB Circular A-133, Audits of States, Local Governments, and Non-Profit
Organizations, mandates audit requirements for most of these entities. The circular directs recipi-
ents to submit the audit reports directly to a federal clearinghouse operated by the Census Bureau.
The clearinghouse, in turn, refers reports with findings to the appropriate agency for resolution.
     The Department is responsible for
monitoring compliance with the Single
Audit Act with regard to recipients over      The single audit report includes:
which it has cognizance, a responsibil-              • the financial statements (auditees responsibility to
ity delegated to OIG. In addition, OIG                   provide);
receives copies of all audit reports that            • a schedule of expenditures of federal awards (auditees
have findings related to Commerce fi-                    responsibility to provide);
nancial assistance recipients and works              • auditors opinions on the fair presentation of the
with the affected operting units and re-                 financial statements and schedule of expenditures of
cipients to resolve those findings. OIGs                federal awards; auditors report on internal control and
Office of Audits expects to receive and                  compliance pertaining to financial reporting;
                                                     • auditors report on internal control and opinion on
review about 200 audit reports referred
                                                         compliance pertaining to major programs;
from the federal clearinghouse annually.
                                                     • auditors schedule of findings and questioned costs;
In compliance with the Single Audit Act,             • auditees corrective action plans; and
as well as with OMB and departmental                 • a summary schedule of prior audit findings which
requirements, we will provide techni-                    includes planned and completed corrective actions
cal assistance to operating unit grants                  (auditees responsibility to provide)
officers as well as to recipients of fi-
nancial assistance, and to independent        Source: Grants Management Committee, U.S. Government Chief Financial
                                              Officers Council, 2001. Highlights of the Single Audit Process. Washington,
public accountants conducting audits of       DC: U.S. Government Chief Financial Officers Council, p. 6.
federal financial assistance grants.          (http://www.oig.dol.gov/public/programs/oa/single_audit/pamphlet.pdf)



Review Emphasis: OIG will work to resolve audit findings, including recipients questioned costs,
with the appropriate Commerce operating units and will conduct quality control reviews of indepen-
dent public accounting firms that have performed A-133 audits. At the request of OMB, OIG will
also conduct a follow-up review of the accuracy of the information contained in the clearinghouse
database, including an assessment of the new on-line reporting system.




                                                                                       OIG Work Plan FY 2002-04             11
                                                    REVIEWS OF NONFEDERAL AUDITS OF
                 FINANCIAL                          NIST ATP PROJECTS

                ASSISTANCE
                 PROGRAMS                             Objective: Review audits done by independent
                                                      public accountants of ATP financial assistance
                                                      agreements with for-profit organizations.

       Significance: NISTs Advanced Technology Program (ATP) bridges the gap between the research
       lab and the marketplace through partnering with the private sector. ATPs early-stage investment, in
       the form of ATP cooperative agreements, helps industry accelerate development of innovative tech-
       nologies that promise significant commercial payoffs and widespread benefits for the nation. ATP
       awards to for-profit organizations are audited by independent public accountants (IPAs), in accor-
       dance with Government Auditing Standards and NIST Program-Specific Audit Guidelines for ATP
       Cooperative Agreements. OIGs Office of Audits reviews the audits conducted by IPAs to ensure that
       they comply with applicable standards and guidelines.
                                                                                   In addition to auditing
                                                                              projects, OIG provides tech-
                                                                              nical assistance interpreting
                                                                              and applying federal audit-
                                                                              ing standards and the
                                                                              Departments requirements
                                                                              to NIST grants officers,
                                                                              award recipients, and the in-
                                                                              dependent public accoun-
                                                                              tants conducting the audits,
                                                                              and updates the NIST pro-
                                                                              gram audit guidelines as
                                                                              needed.

                                                                               Review Emphasis: OIG
                                                                               expects to receive and re-
                                                                               view about 200 ATP project
                                                                               audits per year.




12   OIG Work Plan FY 2002-04
                                              THE COMMERCE ADMINISTRATIVE
              SYSTEMS/                        MANAGEMENT SYSTEM

               CAPITAL
    ACQUISTIONS                              Objective: Assess the risks and address the issues
                                             relevant to implementing the Commerce Adminis-
                                             trative Management System (CAMS).


Significance: More than 10 years ago the Department started the CAMS program in an effort to
comply with OMB Circular A-127, Financial Management Systems, which sets forth policies and
standards for executive departments and agencies to follow in developing, operating, evaluating,
and reporting on financial management systems. The Department awarded a contract for CAMS in
1994, but the project progressed slowly and experienced significant cost increases because of
management issues, strategy changes, and problems with the original accounting software pack-
age.
     Pilot implementation of CAMS was completed at the Census Bureau in 1998, and it is now the
bureaus official accounting system. Implementation at NOAA is scheduled for completion in 2002. By
October 2003, Commerce expects all of its operating units to be using financial management systems
that comply with federal requirements and integrate with the Department-wide financial database. The
estimated cost of CAMS through 2003 is $241 million, including $110 million for operations. Because
of its importance, significant cost, OMBs increasingly more stringent financial statement milestones,
and implementation difficulties, OIG continues to consider CAMSs implementation to be one of the
most important management challenges facing the Department.

                                                                      Review Emphasis: OIG will
                                                                      monitor and, as appropriate,
                                                                      review aspects of CAMS dur-
                                                                      ing FY 2002-03 as it is brought
                                                                      on-line at NOAA and NIST. We
                                                                      will also look at CAMSs abil-
                                                                      ity to provide Commerce with
                                                                      accurate, timely, and reliable
                                                                      financial management infor-
                                                                      mation needed for decision
                                                                      making.




                                                                            OIG Work Plan FY 2002-04     13
                                                          NATIONAL POLAR CONVERGENCE AND
                         SYSTEMS/                         GEOSTATIONARY SATELLITES

                          CAPITAL                         Objective: Determine the effectiveness of the
                                                          National Environmental Satellite, Data, and Infor-

              ACQUISTIONS
                                                          mation Services acquisition activities and manage-
                                                          ment of the nations polar and geostationary envi-
                                                          ronmental satellites.


       Significance: NESDISs satellite systems support ongoing efforts to collect environmental data and
       provide continuous monitoring of short-term severe weather, such as hurricanes and thunderstorms, for
       the world. NESDISs Polar Convergence Program is our governments attempt to consolidate the nations
       civilian, military, and research polar satellites into one program to achieve a projected savings of $1.3
       billion. The Geostationary Satellite Program consists of sets of satellites and ground systems that are
       either in development, production, or operation by various contractors. NESDIS appropriations for both
       satellite programs were more than $500 million in FY 2001 and 2002. The polar and geostationary
       satellite programs, which in turn are made up of multiple programs each, have life-cycle costs estimated
       in billions of dollars. Furthermore, the multiple programs individually have multiple contracts in place
       or planned.
                                                                                The inherent risks associated
                                                                           with such large procurement and op-
                                                                           erations programs make them highly
                                                                           visible and offer significant account-
                                                                           ability issues. GAO noted this in
                                                                           1990. More recently, both GAO and
                                                                           OIG reported on specific problems
                                                                           in the management and acquisition
                                                                           of NESDIS satellites. To simplify and
                                                                           consolidate NESDIS procurement, a
                                                                           single contractor has recently been
                                                                           selected for the Polar Convergence
                                                                           Program.

                                                                           Review Emphasis: OIG plans to
                                                                           examine NESDIS satellite programs
                                                                           in one or more of the following ar-
          Satellites provide a myriad of data. This image from a NESDIS    eas: program management, acquisi-
          weather satellite, accessed September 16, 2002, provides         tion plans and contract structures,
          water vapor data for the eastern sector of the United States.    contract administration, cost control
                                                                           activities, cost estimation and devel-
          Source: NESDIS Geostationary Satellite Server site,
                                                                           opment, requirements development,
          http://www.goes.noaa.gov/
                                                                           system development and testing,
                                                                           ground systems operations, and sat-
                                                                           ellite operational life expectancy.




14   OIG Work Plan FY 2002-04
                                              STRATEGIES FOR MAJOR SYSTEMS
               SYSTEMS/                       ACQUISITIONS

                CAPITAL                       Objective: Determine the effectiveness of Depart-

      ACQUISTIONS                             ment-wide acquisition strategies in obtaining major
                                              computing systems that support the efficiency,
                                              effectiveness, and quality of operations.


Significance: Major systems are critical to Commerce operations, and their cost represents a
large portion of the Departments budget. An important aspect of successful systems acquisition is
ensuring that the acquisition method is grounded in systems and software engineering principles.
Successful systems acquisition requires a disciplined approach that integrates technical,
management, and contractual elements of the acquisition process. The goal is to obtain the best
value product in a timely manner, while maintaining the publics trust and fulfilling public policy
objectives.




It is imperative that all appropriate parties be involved in defining and documenting requirements
early in the planning stages. In addition, the contracts statement of work and technical specifica-
tions must be complete and unambiguous; cost and time estimates should provide realistic budgets
and schedules; and an effective project management structure needs to be in place. Finally, agency
managers responsible for overseeing the project must remain involved throughout the acquisition
process, as previous OIG reports have emphasized.

Review Emphasis: OIG will assess the planning and management of a number of systems acquisi-
tions. These may include the Census Bureaus Master Address File and mapping system (Topologically
Integrated Geographic Encoding and Referencing, or TIGER) and USPTOs electronic patent applica-
tion processing system.




                                                                           OIG Work Plan FY 2002-04    15
                                                              MANAGEMENT CONTROLS GOVERNING
                         SYSTEMS/                             SELECTED CAPITAL ACQUISITIONS
                                                              DEPARTMENT-WIDE
                          CAPITAL
              ACQUISTIONS                                       Objective: Determine the effectiveness of man-
                                                                agement controls associated with acquiring and
                                                                managing long-term investments in capital assets.


       Significance: Commerces FY 2000 consolidated financial statement reports an investment of
       about $7 billion in capital assets. The performance of these assets largely determines how well the
       Department and its operating units accomplish their missions and serve the public.
                Yet a recurring theme in the acquisition of many capital assets is a lack of risk management,
       which is central to the entire planning, budgeting, and procurement process. Failure to analyze and
       manage risks inherent in the acquisitions process has too often led to cost overruns, schedule delays,
       and procurement of assets that do not have the desired capabilities. Both the Department and OIG have
       identified acquisitions reform as a critical challenge facing Commerce. Agencies need a disciplined
       capital assets procurement process that incorporates the key controls of planning, risk management,
       portfolio analysis, performance-based acquisition management, accountability for meeting goals, and
       cost-effective management of the asset throughout its life cycle.

       Review Emphasis: OIG plans to conduct reviews of selected capital planning and acquisition projects
       such as NOAAs acquisition of acoustically quiet, state-of-the-art fisheries research vessels.




                                     Design drawing of one of NOAA’s new fisheries research vessels.




          NOAA reports that this state-of-the-art ship will be its first acoustically quiet fisheries research vessel
          capable of conducting a variety of scientific missions including fisheries stock assessments, physical and
          biological oceanography, marine mammal research, and atmospheric and sea surface research. It will
          provide the best available data to rebuild and sustain our fisheries and to meet the global challenge of
          maintaining sustainable ecosystems and protecting the integrity of long-term research analyses.
          Source: http://www.nmfs.noaa.gov/BudgetFactSheets/YOTO_FISHSHIPS.pdf




16   OIG Work Plan FY 2002-04
 PROGRAMS AND OPERATIONS:
                                              NOAA-WIDE RESEARCH
                                              COORDINATION
    SCIENCE AND
    TECHNOLOGY
                                             Objective: Examine how well NOAA coordinates
                                             the planning and conduct of its scientific research
                                             and takes into consideration the input from line
                                             offices, oversight organizations, and other stake-
                                             holders (for example, states and localities).

Significance: NOAA conducts a variety of scientific studies to support its environmental assess-
ment, prediction, and stewardship roles. Although the Office of Oceanic and Atmospheric Research
has primary responsibility within NOAA for performing research, all NOAA line offices have some
research responsibilities related to their respective disciplines.
     Effective coordination of research
conducted by the various NOAA line
offices is necessary to avoid duplica-
tion of effort and promote effective use
of resources. Coordination requires of-
fices to communicate research priori-
ties to, and incorporate the viewpoints
of, other offices in planning and con-
ducting their studies. It also requires
striking a balance between basic, core
science and applied research that can
aid managerial decision making on
regulatory matters. For example, are
OARs research programs aligned with
and supportive of the mission and ob-
jectives of the other line offices? Do
the various divisions or science labo-
ratories incorporate the priorities of
senior managers, other federal agen-
cies, Congress, and other external
stakeholders? Does NMFS fully take
into account the needs of the regional
fishery management councils in formu-
lating its research agenda?

Review Emphasis: OIG intends to examine how effectively NOAA coordinates the planning and
conduct of its scientific research with its internal and external stakeholders. We may review the
methods by which NOAAs research agenda is determined, assess whether the research is meeting
statutory requirements, and evaluate the current organizational structure for conducting research.




                                                                         OIG Work Plan FY 2002-04    17
                                                     NMFSS ENVIRONMENTAL
         PROGRAMS AND OPERATIONS:
                                                     STEWARDSHIP RESPONSIBILITIES
           SCIENCE AND                                Objective: Determine for selected NMFS manage-

           TECHNOLOGY                                 ment and conservation efforts their efficiency and
                                                      effectiveness and compliance with the 1976
                                                      Magnuson-Stevens Act and other relevant legisla-
                                                      tion.

       Significance: For nearly 30 years, NMFS has had to balance two competing interests: promoting
       fishing as a vital element of our national economy and preserving and restoring diminishing popula-
       tions of fish and other marine life. The Magnuson-Stevens Act gave NMFS the primary federal
       responsibility for fisheries management and established a regional fishery management system to
       help the agency carry out its mission; the 1996 amendment strengthened NMFSs role in protecting
       and sustaining fisheries. Yet, overfishing, certain trawling techniques, and destruction of nursery
       habitats continue to decrease fish populations and rob coastal ecosystems of the ability to produce
       fish.
                                                                                        As a result it seems
                                                                                   reasonable to have In-
                                                                                   crease the effectiveness
                                                                                   of fishery management
                                                                                   as one of the top 10
                                                                                   challenges facing Com-
                                                                                   merce. The Department
                                                                                   identified it as a major
                                                                                   issue in its 2001 Ac-
                                                                                   countability Report, and
                                                                                   Congress has become
                                                                                   increasingly concerned
                                                                                   about fishery conserva-
                                                                                   tion efforts and their ef-
                                                                                   fects on local fishing
                                                                                   communities. Upcom-
                                                                                   ing reauthorizations of
                                                                                   the Magnuson-Stevens
                                                                                   Act and the Marine
                                                                                   Mammal Protection Act
                                                                                   make this a timely sub-
                                                                                   ject for review.


       Review Emphasis: OIG reviews will focus on determining NMFSs ability to (1) balance industry
       and environmental concerns; (2)oversee fishery management plans; (3) expedite the approval pro-
       cesses for management plans; (4) implement the 1996 fish conservation initiatives (protect essen-
       tial fish habitat, minimize fish by-catch, restore overfished stocks); (5) conduct its nonstewardship
       activities, such as the Seafood Inspection Program; and (6) recover endangered and threatened
       species.



18   OIG Work Plan FY 2002-04
                                              ENHANCING SAFE NAVIGATION OF
   PROGRAMS AND OPERATIONS:
                                              U.S. WATERS BY REDUCING THE
      SCIENCE AND                             NOS SURVEY BACKLOG
                                              Objective: Determine whether NOSs hydrographic
      TECHNOLOGY                              survey program is reducing its backlog and meeting its
                                              performance goals of promoting safe navigation, building
                                              partnerships with private sector hydrographic survey
                                              firms, and ensuring the quality of survey data collected
                                              under contract or by government hydrographers.

Significance: Safe and efficient navigation of goods through U.S. waters is vital to maintaining the
nations standing in the global economy. More than 98 percent of U.S. foreign trade (by weight)
travels by sea. Damage to marine environments caused by vessel groundings and collisions is an
important cause for concern. Hydrographic surveys chart the depth of the seafloor and identify
obstructions. Accurate surveys improve the competitiveness of U.S. ports, and U.S. exports in gen-
eral, and lower the risk of marine accidents and the resulting environmental problems. With mari-
time commerce expected to double in the next 20 years, it is increasingly important that the Na-
tional Ocean Services hydrographic surveys, which provide data for NOAAs nautical charts, basic
engineering, and scientific and commercial endeavors, be both accurate and complete.
     In 1994 NOS identified
about 43,000 square nautical
miles, primarily coastal ship-
ping lanes and approaches to
major U.S. ports, as critical
areas to be surveyed. To help
reduce the survey backlog,
Congress added a line item to
NOAAs budget specifically for
NOS to hire private sector hy-
drographic survey firms. NOS
did so and by November 2000
reported that it had reduced the
survey backlog to about
32,500 square nautical miles.
In FY 2001 NOAA received
$20.5 million under this 1994
line item.

Review Emphasis: OIG
                                   The primary data associated with hydrographic surveys is water
plans to conduct reviews of        depth, but seafloor composition (e.g., sand, debris, rocks) has
contract management, data          implications for anchoring, dredging, fisheries habitat, etc. Global
collection priorities, and qual-   position systems (GPS) technology provides precise positioning for
ity control of data collected      survey data. Additional accuracy is determined using the U.S. Coast
both in-house and by private       Guard Differential GPS network.
sector hydrographic survey
firms.                             Source: Office of Coast Survey, NOAA NOS, 2000. National Survey
                                   Plan, p. 2. http://chartmaker.ncd.noaa.gov/staff/nsp/NSPFinal.pdf




                                                                              OIG Work Plan FY 2002-04    19
                                                     NWSS DELIVERY OF INFORMATION TO
          PROGRAMS AND OPERATIONS:
                                                     ITS USERS
             SCIENCE AND
             TECHNOLOGY                               Objective: Determine how effectively the National
                                                      Weather Service delivers forecasts, warnings, and
                                                      other information to its users.


       Significance: NWSs mission is to monitor and report on weather for the United States and warn the
       public of severe weather events. Its forecasts of thunderstorms, flooding, hurricanes, tornadoes, winter
       weather, tsunamis, and other severe weather activity help protect life and property and enhance the
       nations economy. Data and products provided by NWS form a national information database and infra-
       structure that is essential to the United States as well as the global community.
           NWS is composed of headquarters, national centers, and regional offices that provide leadership,
       support, and oversight to field offices 24 hours a day, 7 days a week. Most weather forecast offices
       maintain web sites that provide local and national weather information as well as information about
       themselves and their products in the form of observations, forecasts, warnings, advisories, and outlooks,
       and as computer models. NWS uses a variety of technologies (including radar, satellite, and automated
       surface observation systems) and a network of volunteer weather forecasters to prepare these data and
       products.

       Review Emphasis: OIG is currently conducting a series of reviews of NWS weather forecast offices. At
       the completion of these reviews, OIG plans to issue a capping report on various programmatic, manage-
       ment, and administrative issues identified. Other potential reviews could assess the security and pro-
       tection of NWSs telecommunications gateway backup and evaluate its National Operational and Logis-
       tical Centers.




20   OIG Work Plan FY 2002-04
                                             NIST LABORATORIES FEES FOR
   PROGRAMS AND OPERATIONS:
                                             RESEARCH CONDUCTED FOR OTHER
     SCIENCE AND                             FEDERAL AGENCIES

     TECHNOLOGY                              Objective: Determine whether the National Institute
                                             of Standards and Technology laboratories are prop-
                                             erly charging for reimbursable research performed
                                             for other federal agencies.

Significance: Automated teller machines, atomic clocks, mammography equipment, semiconduc-
tors, and a wide array of other products and services rely in some way on technology, measure-
ments, and standards provided by NIST. NIST laboratories conduct research that advances the
nations technologyresearch that is carried out primarily in its seven laboratories in Gaithersburg,
Maryland, and Boulder, Colorado. The laboratories respond to industry needs for measurement
methods, tools, and data. They also perform research and development activities for other federal
agenciesservices for which NIST is reimbursed; however, concerns have arisen regarding the
method NIST laboratories use to charge and account for their reimbursable services.

Review Emphasis: OIG plans to audit NISTs reimbursable activities to determine whether the
agency is properly charging fees and accounting for its costs.




                                                                           OIG Work Plan FY 2002-04     21
                                                      NTISS MISSION AND FINANCIAL
           PROGRAMS AND OPERATIONS:                   VIABILITY

              SCIENCE AND                              Objective: Address questions concerning NTISs
                                                       changing role and future mission, including whether
              TECHNOLOGY                               the agency can support itself as currently authorized
                                                       and, if not, what should be done.


        Significance: NTIS is the largest central resource for available government-funded scientific,
        technical, engineering, and business-related information. The agency annually receives tens of
        thousands of new publications, technical reports, and other products from hundreds of government
        agencies and other organizations. The agencys mission is to make this information available to the
        public; its mission supports the nations economic growth by providing information that stimulates
        innovation and discovery. NTISs mandate also includes the stipulation that it support itself through
        the sale of information products. However, several years of operating losses raised the question of
        whether NTIS could generate sufficient revenue to cover its expenses.
             In 1999 the Department proposed legislation to close the agency. Congress, however, delayed
        the closure pending the outcome of studies by GAO and the U.S. National Commission on Libraries
        and Information Science. On the basis of those studies, the Commission recommended that NTIS
                                                                                        remain open, that the
                                                                                        public continue to
                                                                                        have access to its in-
                                                                                        formation, and that an
                                                                                        appropriation be pro-
                                                                                        vided to cover costs.
                                                                                        GAO, however, re-
                                                                                        ported that because
                                                                                        NTISs information
                                                                                        sales continued to de-
                                                                                        cline, decisions about
                                                                                        the agencys future
                                                                                        still needed to be
                                                                                        made.
                                                                                             NTIS improved
                                                                                        its short-term finan-
        cial condition, primarily by reducing costs but also by entering into joint ventures and agreements.
        OIG questions whether by entering into these business enterprises, NTIS has exceeded its authority
        and statutory mission. Our concern is that NTIS may continue its revenue-expansion endeavors in
        ways not necessarily in line with its mission.

        Review Emphasis: Potential reviews would focus on the Departments plans for NTIS as well as
        the agencys own plans for its future. OIG will also continue to monitor NTISs financial perfor-
        mance as well as conduct annual audits of its financial statements.




22   OIG Work Plan FY 2002-04
                                              NTIAS PUBLIC TELECOMMUNICATIONS
   PROGRAMS AND OPERATIONS:
                                              FACILITIES PROGRAM
   BUSINESS AND                               Objective: Evaluate the National Telecommunica-
                                              tions and Information Administrations effectiveness

     ECONOMICS                                in assisting public television and radio broadcasters
                                              efforts to convert from analog to digital signal
                                              transmission and in monitoring the performance of
                                              its grant recipients.

Significance: In 1998 the Federal Communications Commission issued a ruling requiring all tele-
vision broadcasters to convert from analog to digital signal transmission to improve the quality of
transmission to viewers, including those in remote rural areas. Public broadcasters must meet this
mandate by 2003. The Public Telecommunications Facilities Program (PTFP) is NTIAs competitive
grants program designed to help public broadcasting stations, state and local governments, Indian
tribes, and nonprofit organizations construct broadcasting facilities that offer educational and cul-
tural programming. In conjunction with the Corporation for Public Broadcasting, PTFP provides
grants to public broadcasters to fund conversion, maintain existing equipment, and expand broad-
casting services.
     In 2001 PTFP awarded 105 grants for a total of $42 million, including 52 awards totaling
nearly $35 million to assist 76 public television stations complete digital conversion. Public broad-
casters, especially those serving rural areas, face significant challenges in accomplishing the digi-
tal conversion. For many, it appears that the 2003 deadline may not be met. Prior investments in
stations that cannot meet the deadline may be lost, and some stations may be forced to go off the air
or reduce their hours of operation.




Review Emphasis: OIG reviews would focus on evaluating PTFPs effectiveness in assisting broad-
casters efforts to convert to digital signal transmission and would examine selected grants to deter-
mine whether NTIA is effectively managing the program, assessing grantee financial viability and
operating capability, and monitoring grantee performance.




                                                                            OIG Work Plan FY 2002-04     23
             PROGRAMS AND OPERATIONS:                   EDAS COORDINATION OF INTERAGENCY
                                                        ECONOMIC DEVELOPMENT EFFORTS
           BUSINESS AND                                  Objective: Determine EDAs effectiveness in

             ECONOMICS                                   working with other agencies to ensure a well-
                                                         coordinated federal response to the financial
                                                         assistance needs of economically distressed commu-
                                                         nities.


        Significance: In FY 1999 federal agencies providing financial assistance to distressed communities
        operated more than 70 economic development programs with funding totaling $58 billion. Commerces
        EDA is one of the agencies providing such assistance. Others include the Environmental Protection
        Agency, the Federal Emergency Management Agency, and entities within the Departments of Energy
        and of Housing and Urban Development. FY 2001 funding for EDAs Economic Development and As-
        sistance Program was about $411 million.
             EDA has both an agency-level and a government-wide responsibility for improving the economy in
        distressed areas. In rural and urban locales that experience high unemployment, low income, or severe
        economic downturns, EDA grants help communities generate and retain jobs and stimulate industrial
        and commercial growth. EDAs work supports the Departments performance goals of promoting job
        creation and private enterprise in economically distressed communities.
             In addition, as a result of legislation, Congress has designated EDA as the lead bureau for improving
        coordination among federal agencies and has urged EDA to proactively work with other agencies to
        increase the efficiency of the federal response to distressed communities. Both GAO and OMB have
        identified the need for stronger interagency coordination to better provide this financial assistance.

        Review Emphasis: OIG plans to evaluate the effectiveness of EDAs coordination with other federal
        agencies as well as assess EDA efforts to provide financial assistance to distressed communities.




24   OIG Work Plan FY 2002-04
                                              ACCURACY AND RELIABILITY OF BEAS
    PROGRAMS AND OPERATIONS:
                                              NATIONAL INCOME AND PRODUCT
  BUSINESS AND                                ACCOUNTS

    ECONOMICS                                 Objective: Evaluate the accuracy, reliability, and
                                              timeliness of the national income and product
                                              accounts as key economic indicators.



Significance: BEA is responsible for obtaining and interpreting large volumes of diverse eco-
nomic data from government and private sources, and for organizing, combining, and transferring
that data into a consistent, comprehensive set of economic accounts for the nation as a whole. The
administration, Congress, Federal Reserve Board, and other entities use these accounts to deter-
mine whether the national economy is contracting or expanding, needs boosting or reining in, or
faces possible recession or inflation.
                                                                      BEAs estimates and related
                                                                 measures increasingly rely on
                                                                 partial data and impute missing
                                                                 source information. These prac-
                                                                 tices could increase errors over
                                                                 time. For example, although mea-
                                                                 sures of growth in production
                                                                 should theoretically equate to
                                                                 measures of growth of income
                                                                 earned from production, in recent
                                                                 years there has been a persistent
                                                                 and increasing difference be-
                                                                 tween the two. Even small differ-
                                                                 ences in real and projected
                                                                 growth rates can have major im-
                                                                 plications for federal budget pro-
                                                                 jections, monetary policy, and
                                                                 business planning.

                                                                  Review Emphasis: Underlying
                                                                  production of the national ac-
                                                                  counts are internal controls, pro-
                                                                  cessing systems, statistical meth-
odologies, and component inputs. Such complexity argues for a phased approach to achieve our
objectives, which include evaluating the effectiveness of BEAs efforts to identify and assess gaps
and other errors in source data used to compile the accounts and improving the accuracy, reliability,
and timeliness of BEAs account estimates.




                                                                           OIG Work Plan FY 2002-04     25
                                                        2010 DECENNIAL CENSUS PLANNING
             PROGRAMS AND OPERATIONS:

           BUSINESS AND                                 Objective: Determine whether the Census
                                                        Bureaus planning and preparation efforts for the

             ECONOMICS                                  2010 census are sufficient; can be integrated and
                                                        tested in a timely fashion; and will enable the bureau
                                                        to effectively manage and control costs, increase
                                                        accuracy, and reduce information security risks.

        Significance: The Department of Commerce, through the Census Bureau, is responsible for con-
        ducting the nations decennial census. The results of this critically important operation are used to
        apportion seats in the House of Representatives, redraw congressional districts, and allocate fed-
        eral funding to states and local communities. OIG, GAO, and Congress scrutinize each decennial
        because of its high costs, risks, resource requirements, and importance.
            To ensure a successful decennial census, early planning and agreement on a design is essential.
        Already, Census Bureau officials are concerned that the design used to produce the 2000 decennial
        cannot be repeated in 2010 without incurring significant additional cost and risk. The 2000 decennial
        cost nearly $7 billion, and the bureau anticipates that the 2010 decennial may be cost prohibitive
        unless the design changes. To this end, the bureau has begun to explore options for the census design for
        2010. Possible changes include eliminating the long form, overhauling the address file, and conducting
        early testing and planning. In the spring of 2002, OIG published Improving Our Measure of America:
        What Census 2000 Can Teach Us in Planning for 2010. It shares the lessons OIG has gleaned through
        years of monitoring and assessing the preparations for and execution of the decennial census and offers
        guidance for improving census planning and operations.

        Review Emphasis: We plan to
        examine some of the more critical
        possible changesfor example,
        the bureaus plans for collecting
        data via the short form only and for
        using modern technology to de-
        velop and maintain a complete and
        accurate address listto deter-
        mine the extent to which they may
        help manage costs, increase accu-
        racy, and reduce risk. Another area
        for review is the overall design
        assessing feasibility of the design
        and of the integration and testing
        of design components in a timely
        fashion. In addition, we plan to re-
        view major contracts awarded and
        to examine some of the evolving
        operational and logistical issues as-
        sociated with preparing for the de-
        cennial.




26   OIG Work Plan FY 2002-04
                                             ITAS TRADE COMPLIANCE AND MARKET
    PROGRAMS AND OPERATIONS:
                                             ACCESS ACTIVITIES
   BUSINESS AND                             Objective: Determine the overall effectiveness of
                                            ITAs efforts to enforce trade agreements and laws
     ECONOMICS                              designed to prevent unfairly traded imports, help U.S.
                                            exporters overcome trade barriers, and cooperate
                                            with other U.S. agencies working on these issues.


Significance: ITAs efforts to ensure trade compliance as well as market access are critical to
expanding U.S. trade and reducing barriers to world markets for U.S. exporters. ITA is also instru-
mental in protecting American businesses from inequitable competition from imports priced at less
than fair market value or subsidized by foreign governments. The Departments efforts to monitor
and ensure compliance with trade agreements have received considerable attention from OMB and
Congress.
    Reports issued by GAO in December 1999 and March 2000 have also helped focus attention
on the need to address the challenges facing Commerce and other federal government entities in
ensuring compliance with trade agreements by other nations. In January 2001, monitoring and
enforcement of trade agreements was identified by GAO as a major national management challenge
and risk.

                                                                             Review Emphasis:
                                                                             OIG will focus on dif-
                                                                             ferent aspects of ITAs
                                                                             tactics for helping
                                                                             companies reduce
                                                                             trade barriers, gain
                                                                             greater market ac-
                                                                             cess, and reap the
                                                                             benefits of trade
                                                                             agreements. Our re-
                                                                             views will also cover
                                                                             specific components
                                                                             of the Compliance
                                                                             Initiative, such as the
                                                                             activities of overseas
                                                                             compliance officers
                                                                             and the adequacy of
                                                                             desk officers, particu-
                                                                             larly on the China and
                                                                             Japan desks. In addi-
tion, we intend to review selected aspects of the Import Administrations investigations of foreign
producers and governments to determine whether dumping or subsidization has occurred, and its
efforts to enforce the assessment and collection of antidumping and countervailing duties.




                                                                           OIG Work Plan FY 2002-04    27
                                                        ITAS EFFORTS          TO   PROMOTE
             PROGRAMS AND OPERATIONS:
                                                        U.S. EXPORTS
           BUSINESS AND
             ECONOMICS                                 Objective: Determine the effectiveness of ITAs
                                                       efforts to promote U.S. exports.


        Significance: There is an important connection between Americas high standard of living and the
        continuous expansion of U.S. exports into world markets. U.S. import and export activities reportedly
        currently contribute about 30 percent of the U.S. gross domestic producta contribution expected to
        increase to as much as 40 percent in the next 10 years. As the federal entit with primary responsibility
        for promoting U.S. exports, ITA is a key resource for the American business community. Through the
        U.S. and Foreign Commercial Service (US&FCS), the Office of Trade Development, and other compo-
        nents, ITA commerce provides assistance to American firms seeking to identify overseas markets and
        opportunities for their products and services.
             Congress has a strong interest in U.S. export promotion programs. The Omnibus Trade and Competi-
        tiveness Act of 1988 mandates that OIG report to Congress on its assessment of the management and
        effectiveness of US&FCS operations, including its personnel systems and placement of domestic and
        foreign staff. The focus of Congress, OIG, and GAO has frequently been on whether federal government
        efforts and resources have been sufficiently coordinated and strategically directed at helping U.S. busi-
        nesses compete in foreign markets.

        Review         Emphasis:
        OIGs oversight strategy
        for this issue area is two-
        fold. First, we will conduct
        individual inspections of
        the Departments front-
        line operations at
        US&FCSs overseas posts
        and domestic Export As-
        sistance Centers to assess
        their effectiveness at de-
        livering services and mar-
        ket assistance to their
        business clients, coordi-
        nating trade efforts with
        partner organizations, and
        managing US&FCS re-
        sources. Such inspections
        also reveal issues that may
        affect US&FCS operations in entire regions or worldwide. Second, we will conduct reviews that
        focus on ITA program management and operational issues, such as resource allocation; client sat-
        isfaction; quality control; personnel training and assignments; trade events; special initiatives; and
        US&FCSs products, services and user fees.




28   OIG Work Plan FY 2002-04
                                                MBDAS COORDINATION AND
    PROGRAMS AND OPERATIONS:
                                                DELIVERY OF SERVICES TO THE
  BUSINESS AND                                  MINORITY BUSINESS COMMUNITY
                                                Objective: Assess MBDAs effectiveness as the

    ECONOMICS                                   coordinator of federal minority business develop-
                                                ment programs and the success of its service deliv-
                                                ery efforts.


Significance: A number of federal agencies operate programs that serve the rapidly growing minor-
ity business community. The Minority Business Development Agency, however, has been given the
unique task of coordinating all minority business programs operated by federal agencies.
     Effective service delivery could maximize the impact of available funding, reduce overhead costs
and duplication of effort, promote cooperation, enhance oversight, and increase program visibility. Vari-
ous stakeholders have an interest in improving the coordination of federal minority business programs,
including the minority business community, other federal agencies, OMB, and Congress.




Review Emphasis: OIG reviews will assess MBDAs effectiveness in coordinating federal minor-
ity business assistance programs. With regard to delivering information about business opportuni-
ties and technical assistance to the minority business community, other prospective reviews will
assess the effectiveness of MBDAs information technology and e-commerce initiatives.




                                                                              OIG Work Plan FY 2002-04      29
                                                        USPTOS TRANSITION TO A
             PROGRAMS AND OPERATIONS:
                                                        PERFORMANCE-ORIENTED
           BUSINESS AND                                 ORGANIZATION
                                                        Objective: Ensure that USPTO effectively responds

             ECONOMICS                                  to its increasing workload, efficiently handles its
                                                        operational and logistical issues, and productively
                                                        uses information technology as it continues its
                                                        transition to a performance-oriented organization.

        Significance: Pursuant to authority granted by the American Inventors Protection Act of 1999,
        USPTO is reorganizing itself as a performance-oriented organization, thus gaining greater flexibility
        and independence to operate more like a business. With this change, USPTO gains increased au-
        thority over and responsibility for decisions regarding the management of its operations and greater
        control over its budget allocations and expenditures, personnel decisions and processes, and pro-
        curement operations. Despite the potential benefits of the change, the transition is a formidable
        undertaking. USPTO must continue to formulate the necessary personnel, procurement, and admin-
        istrative policies and develop a performance-oriented process and standards for evaluating cost-
                                                                      effectiveness while meeting its perfor-
                                                                      mance goals under GPRA. OIG views
                                                                      successful transition to a performance-
                                                                      oriented organization as critical to
                                                                      USPTOs ability to address three pri-
                                                                      mary challenges.
                                                                            First, USPTO must find a way to
                                                                      attract and retain a qualified corps of
                                                                      patent examiners. Although trademark
                                                                      applications dropped in 2001 (by more
                                                                      than 79,000), patent applications are
                                                                      risinga trend that shows no sign of
                                                                      slowing. Many new examiners and ad-
                                                                      ministrative judges have been hired in
                                                                      response to the increased number of
                                                                      patent applications, yet USPTO annu-
                                                                      ally looses many examiners through at-
                                                                      trition. Second, the agency must over-
                                                                      see one of the largest real estate ven-
                                                                      tures the federal government plans to
                                                                      undertake in this decadethe con-
        struction of USPTOs new 2.4 million-square-foot, five-building office complex in Alexandria, Vir-
        ginia, to be completed in 2004. Third, USPTO continues to face significant challenges in delivering
        essential IT capabilities. Increased focus on operational efficiencies requiring IT solutions has
        intensified the demands on automated systems, adding further strain on the organization.

        Review Emphasis: OIG will perform targeted reviews of USPTOs efforts to (1) more effectively and
        efficiently cope with its increasing patent workload, (2) keep its facility construction project on sched-
        ule and within budget, and (3) lower IT system development costs, improve system quality, and promote
        end-user acceptance of new systems.




30   OIG Work Plan FY 2002-04
                                                MAJOR CAPITAL FACILITIES
    PROGRAMS AND OPERATIONS:
                                                IMPROVEMENT PROJECTS
  DEPARTMENT-WIDE                               Objective: Ensure that Commerce and its operating
                                                units maximize the federal governments return on
     MANAGEMENT                                 its investments in major facilities construction and
                                                renovation projects.




Significance: The Department and its major operating units are actively engaged in planning and
managing numerous large, costly, and complex capital improvement and construction projects. These
projects involve expenditures of hundreds of millions of dollars, a multiplicity of individuals and busi-
ness entities, and multiple inherent risks.
    Appropriate leadership and oversight are needed to maximize the federal governments return on
these investments. Past OIG reviews of major facilities renovation and construction projects have dem-
onstrated that early, up-front oversight of such projects while they are under way, rather than after they
have been completed, helps prevent, detect, and correct problems before considerable time and money
have been expended.

Review Emphasis: Among the projects that we are actively considering for review are
   NISTs multimillion-dollar program to upgrade its facilities, including constructing new and
   renovating existing laboratories at its
   sites in Gaithersburg, Maryland, and
   Boulder, Colorado;
   the Census Bureaus plans to construct
   new and renovate existing buildings at
   its headquarters in Suitland, Maryland;
   NOAAs various renovation and con-
   struction projects under way or planned
   to meet its need for state-of-the-art fa-
   cilities to carry out its missions of moni-
   toring and protecting the environment;
   the planned           modernization of
   Commerces headquarters building in
   Washington, DC; and
   USPTOs billion-dollar effort to con-
   solidate its employees and operations
   in a single new facility in Alexandria,
   Virginiaidentified as one of the larg-
   est real estate ventures the federal gov-
   ernment expects to undertake in this
   decade.




                                                                               OIG Work Plan FY 2002-04      31
                                                      ADMINISTRATIVE SERVICES PROGRAMS
           PROGRAMS AND OPERATIONS:

          DEPARTMENT-WIDE
             MANAGEMENT
                                                      Objective: Assess the effectiveness of selected
                                                      administrative services programs within Commerce.


        Significance: The Departments Office of Administrative Services is responsible for planning, de-
        veloping, and implementing policies and procedures for delivering a full range of administrative
        services Department-wide. Among those services is management of Commerce headquarters, the
        Herbert C. Hoover Building in Washington, DC, including its operations, maintenance, and repair.
        Department-wide, OAS is also responsible for providing mail service; concessions; real and per-
        sonal property management; fleet management; printing and publications support; space planning;
        and moving, telecommunications, library, and reference services. Improper or careless manage-
        ment of these services could waste taxpayer dollars and impose unplanned expenses on Commerce
        operating units, which they would have to cover with funds from already tight budgets.
             The Office of Administrative Services is 1 of 21 Commerce offices and operations funded in whole
        or in part by departmental management funds, specifically the Advances and Reimbursements Account,
        the Working Capital Fund, and the Gifts and Bequests Fund. Since 1996 the costs funded by the Work-
        ing Capital Fund have increased by about 50 percent, whereas costs of other departmental management
        funds have remained relatively steady.

        Review Emphasis:
        OIG plans to review
        the efficiency and ef-
        fectiveness of the Of-
        fice of Administrative
        Services, specifically
        selected aspects of its
        management and
        maintenance of the
        Herbert C. Hoover
        Building, as well as
        the GSA/Commerce
        Building Delegation
        Agreement. In addi-
        tion, we plan to review
        specific administra-
        tive services funded
        by the Advances and
        Reimbursements Ac-
        count, the Working
        Capital Fund, and the
        Gifts and Bequests
        Fund.




32   OIG Work Plan FY 2002-04
                  PROCEDURES FOR DESIGNATING
   PROGRAMS AND OPERATIONS:
                  POSITIONS ACCORDING TO THEIR LEVEL
  DEPARTMENT-WIDE OF RISK AND SENSITIVITY
            MANAGEMENT                         Objective: Assess the policies and procedures for
                                               classifying positions according to their potential impact
                                               on government programs and operations or national
                                               security and for ensuring that appropriate background
                                               investigations are completed for current and prospec-
                                               tive employees.
Significance: Numerous positions within Commerce involve crucial policy making roles as well as
public safety and health, law enforcement, fiduciary, and other responsibilities. Employees in these
positions are accorded a significant degree of public trust because they can have considerable impacts
on the efficiency and integrity of government programs. Commerce also contains positions that
could materially, adversely affect national security. Personnel attrition requires hiring on a continu-
ous basis, and investigative technologies are constantly being advanced. Therefore, procedures for
designating positions according to their level of risk (the potential harm an individual in the position
could cause to government operations) and sensitivity (the potential adverse impact on national
security the position holder could have) need to be reviewed periodically.
    Heads of operating units are required to designate each competitive service position within
their unit according to its level of risk and sensitivity. OIG has evaluated certain aspects of this
issue and concluded that the Departments guidance for determining these designations needs to be
strengthened. We also found instances in which the Departments records on employee background
investigations were incomplete and needed to be updated.
    Moreover, other evaluation work has suggested that inappropriate sensitivity and risk designa-
tions and inadequate background checks may be problems elsewhere in Commerce.

Review Emphasis: OIG plans to review position designations and background investigations at se-
lected operating units to ascertain whether designations are accurate, proper background checks are
being conducted, and the employee database containing this information is current, correct, and
complete.




                                                                              OIG Work Plan FY 2002-04     33
           PROGRAMS AND OPERATIONS:
                                                      ACQUISITION REFORM AND
                                                      MANAGEMENT
          DEPARTMENT-WIDE                             Objective: Determine the effectiveness of the
                                                      Departments and its bureaus implementation and
             MANAGEMENT                               oversight of federal acquisition reform initiatives,
                                                      and ensure that the initiatives are carried out in
                                                      accordance with applicable laws, regulations, and
                                                      policies and sound business practices.

        Significance: Commerce spends more than $1 billion per year procuring goods and services from
        a variety of sources, and its reliance on contractor-provided support is increasing. Commerce oper-
        ating units that have been delegated procurement authority, as well as the senior procurement
        executive and the Office of Acquisition Management, are all challenged with implementing new
        reforms, practices, and procedures while operating with limited resources. Successfully imple-
        ment acquisition reform initiatives is one of the Departments Top 10 Management Challenges.
        Reform efforts include increased use of commercial products, performance-based service contract-
        ing, simplified acquisition procedures, and consideration of past performance as a major evaluation
        criterion in awarding new contracts. In fact, OMB has directed agencies to include in their FY 2002
        performance plans the goals for awarding service contracting dollars on the basis of past satisfac-
        tory performance.
             Adequate oversight of
        the implementation of these
        reforms is critical to their
        success. Inadequate over-
        sight of procurements has
        been cited as a problem in
        several OIG reports. Other
        concerns expressed by
        OMBs Office of Federal Pro-
        curement Policy, by GAO,
        and by the IG community as
        a whole make it clear that
        the Departments efforts
        need oversight to ensure that
        reform initiatives are being
        implemented appropriately.

        Review Emphasis: OIG
        plans to review several as-
        pects of service procurement
        at Commerce. We will look
        at not only the use of past-performance information in selecting vendors, but also the collection and
        maintenance of such information within the Department. We will also examine operating units
        compliance with other requirements, such as the prohibition against contracting for personal ser-
        vices.




34   OIG Work Plan FY 2002-04
   PROGRAMS AND OPERATIONS:                   THE COMMERCE BANKCARD PROGRAM

  DEPARTMENT-WIDE
     MANAGEMENT                               Objective: Determine the adequacy and effective-
                                              ness of the Departments policies and procedures
                                              for preventing fraud, waste, and abuse in its
                                              bankcard program.

Significance: The Department of Commerce established its bankcard program in 1986 under
Executive Order 12352, Federal Procurement Reform. Program objectives were to expedite and
streamline the purchasing process for commercial goods, services, and travel, minimize paper-
work, and improve internal controls and cash management. The bankcard program, known as GSA
SmartPay, also includes purchase, travel, and fleet credit cards issued by a private contractor.
Department officials must ensure that card usage complies with applicable federal regulations as
well as Department policy and guidelines. During FY 2001 Commerce had more than 30,806
bankcards outstanding24,401 travel cards and 6,405 purchase cards. The purchase card pro-
gram, which includes convenience checks, accounted for $131.6 million in spending and reflected
336,964 individual purchases for goods or services. Similarly, travel cards represented approxi-
mately $33 million in annual travel-related expenses. With this level of activity annually, the poten-
tial for fraud, waste, or abuse is high. Our office includes successful implementation of acquisition
reform initiatives as one of the Top 10 Management Challenges facing the Department.
     Congressional interest in and media attention to this issue are also high. The Department has
received congressional inquiries regarding Commerce employees and contractors authorized to
                                                                        execute third-party drafts and
                                                                        to use government-issued pur-
                                                                        chase cards or convenience
                                                                        checks. A GAO review of one
                                                                        non-Commerce agencys pur-
                                                                        chase card use found wide-
                                                                        spread potential fraud at two
                                                                        major operations.

                                                                     Review Emphasis: OIG
                                                                     plans to continue to conduct
                                                                     individual assessments of
                                                                     bankcard use by various Com-
                                                                     merce bureaus and the De-
                                                                     partment, some of which will
                                                                     be performed as part of
                                                                     broader internal control evalu-
                                                                     ations. OIG will assess the ef-
fectiveness of bankcard oversight provided by the Departments Office of Acquisition Management
and, where appropriate, will investigate occurrences of fraudulent use, misuse, or abuse identified
through its assessments and evaluations.




                                                                            OIG Work Plan FY 2002-04     35
                                                        POLICIES AND PROGRAMS FOR
           PROGRAMS AND OPERATIONS:
                                                        HUMAN CAPITAL MANAGEMENT
          DEPARTMENT-WIDE
             MANAGEMENT                                 Objective: Assess the development and adminis-
                                                        tration of human capital management policies and
                                                        programs Department-wide.

        Significance: Strategic management of human capital is one of the five government-wide initia-
        tives in the Presidents August 2001 Management Agenda. Significant changes in the federal
        workforce, including loss of institutional knowledge through attrition, could have significant impacts
        on Commerces varied and complex programs. The loss is addressed in the Departments FY 2002
        Annual Performance Plan; OMB identified it as a high-priority area; and GAO cited strategic human
        capital management as a major government-wide challenge. Congress and GAO have expressed
        considerable concern that agency workforces may not be appropriately constituted to meet the
        current and emerging needs of the government and the nations citizens. Clearly, the need to
        recruit, train, and retain personnel who can effectively manage scientific and technological pro-
        grams and sophisticated IT systems is critical and ongoing.
             OMB Bulletin No. 01-07, Workforce Planning and Restructuring (May 8, 2001), directs each fed-
        eral agency to analyze its workforce, prepare strategies for deploying staff to frontline service delivery
        positions that promote interaction with citizens, assess and upgrade employee skills needed to accom-
        plish missions now and in the future, and use workforce planning to drive agency restructuring.

        Review Emphasis: OIG reviews will incorporate the workforce initiatives focus on such issues as (1)
        properly and effectively using contractors; (2) recruiting, retaining, and training or developing employ-
        ees with needed skills; (3) assessing the skills mix of the current workforce and determining skill
        shortfalls; and (4) evaluating the adequacy of current organizational structures, assessing mission readi-
        ness, and developing organizational plans to achieve the Departments and Presidents workforce objec-
        tives.




36   OIG Work Plan FY 2002-04
                         DEPARTMENT-WIDE PLANNING,
             INFORMATION MANAGEMENT, AND OVERSIGHT OF IT
             TECHNOLOGY PROJECTS
                                              Objective: Determine whether the policies, plans,
                   AND        DATA            processes, and oversight of Commerces information
                                              technology projects are in compliance with the
           MANAGEMENT                         Clinger-Cohen Act of 1996 and with sound business
                                              practices.

Significance: At Commerce, sound information technology management is key to eliminating inef-
ficient paper-oriented processes while modernizing outdated operational computer systems and
improving inadequate financial systems. Commerce bureaus spend about $1 billion annually on IT
systems, yet planning and management of IT throughout the Department has too often been lax,
calling into question the return on investment in some areas.
     The Clinger-Cohen Act requires that agencies have chief information officers (CIOs) and processes
in place to help ensure that IT projects are implemented at acceptable costs and within reasonable and
expected time frames and are contributing to tangible improvements in mission performance. In
late 2001 the Secretary directed a Department-wide IT management restructuring to improve com-
pliance with the act. The restructuring increased the authority of departmental CIOs, making them
more integral members of their respective management teams.
     The administration has made thorough implementation of the Clinger-Cohen Act a top priority, an
undertaking that requires agencies to improve capital planning, meet annual performance measures,
and complete IT architectures. As part of this effort, OMB is ordering many federal executives to un-
dergo training in how to build capital planning strategies for IT projects, such as developing business
cases and performance measures.

Review Emphasis: OIG plans to assess the progress of the Department and selected operating
units in implementing the requirements of the Clinger-Cohen Act. We will focus on the priority areas
identified by OMB as critical to ensuring that the acts goals are met.


                               U.S. Department of Commerce
                            Office of the Chief Information Officer
                          Office of Information Planning and Review

The information technology planning program seeks to improve overall management of information
technology resources through effective strategic and operational planning that directly supports program
missions. . . . The computer security program ensures the security of Commerce systems by
assisting operating units in identifying and implementing process controls for their sensitive and
classified automated systems and implementing provisions of the Computer Security Act of 1987,
the Government Information Security Reform Act of 2000, and Presidential Decision Directive 63 of
May 22, 1998, Critical Infrastructure Protection. The information technology architecture and
standards program works to achieve interoperability and portability of systems, integration of work
processes and information flows, and information exchange and resource sharing to achieve strategic
goals within Commerce. The information technology accessibility program strives to ensure that
electronic and information technology is accessible to persons with disabilities.
Source: http://www.osec.doc.gov/cio/oipr/INDEX.H




                                                                              OIG Work Plan FY 2002-04     37
                                                        ELECTRONIC-GOVERNMENT INITIATIVES
                    INFORMATION
                    TECHNOLOGY                          Objective: Determine the Departments progress
                       AND DATA                         in implementing electronic-government (e-gov)
                                                        initiatives and assess security measures used to
                    MANAGEMENT                          maintain personal privacy and protect government
                                                        assets in e-gov transactions.

        Significance: E-gov refers to the use of technology, particularly web-based Internet applications, to
        enhance access to and delivery of government information and services to citizens, businesses, employ-
        ees, and other agencies and organizations. According to a recent poll, nearly half of all U.S. citizens have
        used a government web site, and almost three-quarters believe that e-gov should be a high priority.
        The Department of Commerce is moving from a paper-based bureaucracy to a digital Department. Its
        goalto effectively collect, produce, process, and provide information in a medium that best meets the
        needs of employees and customers. In addition to improving the delivery of services, the Department is
        relying on e-gov to reduce service delivery costs.
             The Government Paperwork Elimination Act requires that by October 21, 2003, federal agencies
        provide the public, when practicable, the option of submitting, maintaining, and disclosing required
        information electronically. Commerces chief information officer recently reported that the Department
        has many challenges to overcome in moving from paper-based to Internet-based processes. In addition,
        GAO and our office have identified protecting personal privacy and providing appropriate security con-
        trols as major challenges to the e-gov transition. OMB is responsible for ensuring that federal agencies
        meet the acts implementation deadline, and GAO is assessing agency plans for complying with the act.

        Review Emphasis: OIG plans to examine how well selected agencies are addressing critical success
        factors (for example, sustaining committed leadership, building effective e-gov business cases, imple-
        menting appropriate security controls, and providing capable IT staff) in carrying out e-gov initiatives.




38   OIG Work Plan FY 2002-04
                                                    DATA MANAGEMENT
             INFORMATION
             TECHNOLOGY
                                                     Objective: Determine whether Commerce
                AND DATA                             operating units data management capabilities
                                                     support mission-critical operations, data sharing
             MANAGEMENT                              with other government entities, and the publics
                                                     access to data.

Significance: Government agencies are required to handle rapidly increasing amounts of scien-
tific, statistical, geographic, business, and personal data. The governments emphasis on perfor-
mance and results creates the need to expedite access to and use of this data. Moreover, protecting
data from damage or loss poses significant maintenance and storage challenges that require modern
systems and operations.
     The missions of Commerce operating units present a wide variety of data management needs: col-
lecting large amounts of weather information to support weather prediction and climate research, ad-
ministering the growing patent and trademark database, and processing massive quantities of confiden-
tial resident data gathered by the decennial and other censuses and surveys are but a few.

Review Emphasis: OIG plans to assess selected data management programs to determine their effi-
ciency and effectiveness in preserving, controlling the quality of, storing, and providing user access to
data holdings, as well as operating units efforts to modernize their systems, operations, and ser-
vices.

                                                                 Big Bertha Blasts North Carolina!
                                                                 Hurricane Bertha slammed into North
                                                                 Carolinas southern coastline on July 12,
                                                                 1996, with sustained winds of approxi-
                                                                 mately 105 MPH, and gusts reported as
                                                                 high as 144 MPH (Topsail Beachun-
                                                                 confirmed). Damages were estimated to
                                                                 exceed $60 million for homes and struc-
                                                                 tures, and over $150 million for agricul-
                                                                 ture. Corn, tobacco, and other crops re-
                                                                 ceived severe damage from the storm.
                                                                 Rainfall totals of over 5 inches were com-
                                                                 mon in eastern NC.


Source: http://lwf.ncdc.noaa.gov/oa/reports/bertha/bertha.html


 Predicting, reporting, and analyzing the impacts of severe weather events such as Hurricane Bertha
 entails numerous complex data-gathering, processing, and dissemination capabilities. Data manage-
 ment to support these and other mission-critical activities at Commerce must be state-of-the-art.




                                                                                 OIG Work Plan FY 2002-04     39
                                                            VERIFICATION AND VALIDATION OF
                             STRATEGIC                      PERFORMANCE MEASURES
                  PLANNING AND
                   PERFORMANCE                               Objective: Monitor the Departments efforts to

                  MEASUREMENT                                establish relevant performance measures and report
                                                             credible performance information.


        Significance: OIG, Congress, GAO, and others recognize the need for Commerce to ensure that
        the data used to measure the performance of each program and operating unit is accurate, com-
        plete, and reliable. OIG identified Continue to improve the Departments strategic planning and
        performance measurement in accordance with the Government Performance and Results Act as
        one of Commerces Top 10 Management Challenges. Since 2000, OIG has conducted audits of
        selected performance measures at four Commerce operating unitsBIS, NTIA, NIST, and USPTO.
        These reviews helped identify improvements needed to strengthen the reliability of the Departments
        performance measures. Congress demonstrated its interest in performance measurement by re-
        questing relevant assessments and by passing the Reports Consolidation Act of 2000, which, among
        other things, requires the Secretary of Commerce to evaluate the completeness and reliability of
        performance information provided in departmental reports.
             Commerce officials recognition that performance data must be credible is reflected in the
        Departments FY 2000 Accountability Report. In it the Secretary of Commerce stated that (1) the De-
        partment continues to develop and implement procedures to assure that our performance information is
        not only appropriate, but also complete and reliable, and (2) we will be strengthening our data valida-
        tion and verification methods. The report further notes that Commerce is developing an automated
        system for tracking performance measures.


                                   Government Performance and Results Act
         GAO published an executive guide on implementing the Government Performance and Results Act (GPRA).
         GAO noted that: (1) GPRA forces federal agencies to focus on their missions and goals, how to achieve them,
         and how to improve their structural organizations and business processes; (2) agencies must define their missions
         and desired outcomes, use strategic planning, involve stakeholders, assess their environments, and align their
         activities, core processes, and resources to support mission-related outcomes; (3) agencies need to measure
         their performance to ensure that they are meeting their goals and making informed decisions; (4) performance
         measures need to be based on program-related characteristics and performance data must be sufficiently complete,
         accurate. and consistent; (5) agencies must use performance data to improve organizational processes, Identify
         performance gaps, and set improvement goals; and (6) GPRA success depends on strong leadership practices
         that devolve decisionmaking authority with accountability, create incentives, build expertise, and integrate
         management reforms.

         Source: Executive Guide: Effectively Implementing the Government Performance and Results Act.
         http://www.gao.gov/special.pubs/gpra.htm



        Review Emphasis: OIG will examine the Departments efforts to collect and report reliable and
        useful performance information for program managers and oversight groups. Reviews will focus
        primarily on performance measures addressed in the Accountability Report, and evaluations will
        include audits to determine whether internal controls sufficiently ensure the accuracy of perfor-
        mance data.


40   OIG Work Plan FY 2002-04
                                               GPRA REQUIREMENTS FOR
                     STRATEGIC                 EVALUATING PROGRAM RESULTS
          PLANNING AND
           PERFORMANCE                          Objective: To meet GPRA requirements, assess
          MEASUREMENT                           the efficiency and effectiveness of various programs
                                                and activities within the Department.

Significance: GPRA requires the ongoing monitoring and reporting of program accomplishments;
but for many programs, outcomes are not quickly achieved, readily observed, or easily linked to
results. Program evaluations are useful for assessing performance and determining whether in-
tended objectives are being achieved. These individual, systematic studies use objective measure-
ment and analysis to answer specific questions about how well a program is working.
     GPRA recognizes the complementary nature of program evaluation and performance measurement.
Specifically, the legislation requires strategic plans to describe the program evaluations used to estab-
lish and revise goals and also to include a schedule for future evaluations. In its most recent strategic
plan, the Department identified, as a management objective, the need to standardize its program evalu-
ation methods and timetables by 2003.
     In recent years, some of EDAs major programs have been evaluated several times. Most other
operating units, however, have not used this tool to assess the efficiency and effectiveness of their
programs.

Review Emphasis: To ensure
that Commerce programs are
assessed for efficiency and ef-
fectiveness OIG plans to review
program evaluations performed
by operating units or on their be-
half by contractors, or we may
conduct evaluations of opera-
tions to identify ways to improve
performance. In assessing pro-
gram evaluations performed by
others, we will review both rea-
sonableness of assumptions and
reported results, and will recom-
mend ways to improve perfor-
mance.




                                                                              OIG Work Plan FY 2002-04      41
                                                     MONITORING AND FOLLOW-UP
               OIG PROGRAMS                          REVIEWS ON THE IMPLEMENTATION OF
                                                     KEY OIG RECOMMENDATIONS
               AND ACTIVITIES
                                                     Objective: Ensure that the Department and its
                                                     operating units implement agreed-upon actions to
                                                     address OIG recommendations.

        Significance: OIG recognizes that merely conducting audits, reviews, and inspections; making
        constructive recommendations; and relying on the resolution and follow-up process to ensure that
        improvements are made are not always enough. The value of our work ultimately depends on ac-
        tions actually taken to implement our recommendations. DAO 213-5, Audit Resolution and Follow-
        Up, requires that OIG monitor and perform periodic follow-up reviews of agencies resolution ac-
        tivities, including implementation of recommendations. Only through continual, systematic moni-
        toring and follow-up can we ensure that our reviews have achieved the desired results.

        Review Emphasis: We will focus our monitoring and follow-up reviews of the most critical issues
        facing the Department and its operating units.




42   OIG Work Plan FY 2002-04
                                              PARTICIPATION IN GOVERNMENT-WIDE
       OIG PROGRAMS                           AND CROSSCUTTING PROJECTS

       AND ACTIVITIES                         INVOLVING MULTIPLE OIGS

                                               Objective: Perform work on government-wide and
                                               crosscutting issues that can best be addressed by
                                               review teams that may be made up of representa-
                                               tives from multiple OIGs.

Significance: Many of the issues discussed in this Work Plan cut across Commerce operating
units. By the same token, other federal agencies and their respective Offices of Inspector General
address some of these same issues. Although crosscutting issues usually have agency-specific
characteristics that make review by that agencys OIG most suitable, in some instances a broader
perspective through joint reviews by two or more OIGs is more appropriate. On occasion congres-
sional committees seeking a government-wide examination of critical matters involving multiple
agencies request these broader reviews. At other times, they grow out of discussions by the inter-
agency OIG group, the Presidents Council on Integrity and Efficiency (PCIE).

Review Emphasis: Current and potential multi-OIG projects include the following:
     A series of reviews to assess the adequacy and effectiveness of the U.S. multiagency export
    licensing process (see page 4). This work is being done in conjunction with five other OIGs pursu-
    ant to the National Defense Authorization Act for fiscal year 2000, which mandated annual report-
    ing until 2007 (see figure below).
     A PCIE review of agencies management of their bankcard programs, an issue that we have
    identified for Commerce-specific work (see page 37).
     An examination of agencies use of interagency and other special agreements to carry out
    missionsan area noted as problematic for Commerce operating units in a series of reviews
    conducted in the late 1990s.




                                                                            OIG Work Plan FY 2002-04     43
